\

V

\

Case: 20-60513

v.

Document: 00515734757

Page: 1

Date Filed: 02/05/2021

©nttcti States Court of Appeals:
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED
No. 20-60513

February 5, 2021
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellee,
versus
Bobby Wilson, Jr.,
Defendant—Appellant.

Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 5:98-CR-13-l

BeforeJONES, Costa, and Wilson, Circuit Judges.
Per Curiam:
Bobby Wilson, Jr., Mississippi prisoner # 52274, appeals the district
court’s denial of his petition for a writ of coram nobis, pursuant to 28 U.S.C.
§ 1651. seeking to invalidate his 1999 federal guilty plea convictions for bank
robbery. The Government has moved to dismiss or, alternatively, for
summary affirmance, asserting that the motion was barred by the waiver of
collateral review in the written plea agreement. Wilson opposes the motion,
asserting that the waiver is invalid because he was incompetent to plead
guilty.

I'PPPtNOll

A

Case: 20-60513

Document: 00515734757

Page: 2

Date Filed: 02/05/2021

No. 20-60513

A defendant may waive his statutory right to appeal if the waiver is
knowing and voluntary. United States v. Bond, 414 F.3d 542, 544 (5th Cir.
2005). Generally, we rely on the rearraingment hearing transcript to
determine whether the waiver was made knowingly and voluntarily. See
United States v. Jacobs, 635 F.3d 778,781 (5th Cir. 2011). In this instance, the
rearraignment transcript is absent from the record. But Wilson’s contention
that he did not knowingly and voluntarily enter into his plea agreement
(including the waiver on which the Government bases its motion to dismiss)
is based wholly on his assertion that he was not competent to enter into the
agreement. His contention is belied by the record, irrespective of the missing
rearraignment transcript.
Before he pled guilty in 1999, Wilson underwent a court-ordered
psychological evaluation. The evaluation included a several-weeks long
observation period by the evaluating psychologist, who ultimately concluded
that Wilson was both competent to stand trial and to make decisions
regarding his case. Now, as then, Wilson offers no evidence that undermines
this finding of competency, and thus offers no evidence that his plea
agreement is invalid on this ground. Cf United States v. Williams, 519 F.
App’x 303, 303-04 (5th Cir. 2013) (enforcing plea waiver although Rule 11
transcript was missing because other parts of the record established that
defendant knowingly and voluntarily consented to waiver).
Because, as the district court found, there is no evidence that raises
doubt about Wilson’s competency at the time of his guilty plea, Wilson raises
no genuine question about his ability to understand the proceedings or to
enter into the plea agreement, including the waiver of collateral review,
knowingly and voluntarily. Accordingly, the Government’s motion to
dismiss is GRANTED.

2

Case 5:98-cr

013-DCB Document 84 Filed 0

3/20 Page 1 of 15

IBWfHfcyxj
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION
United States of America
vs.

CRIMINAL ACTION NO. 5:98-cr-13-DCB-l

Bobby Wilson, Jr.

Defendant
ORDER

This cause comes before the Court on the pro se defendant's
Motion for Writ of Coram Nobis.

[ECF No. 80]. Having considered

the motion, applicable statutory and case law, and being
otherwise fully advised as to the premises, the Court finds and
orders as follows:
Background
On February 22, 1999, the defendant pleaded guilty to two
counts of bank robbery in violation of 18 U.S.C. § 2113(a). On
June 15, 1999, this Court sentenced the defendant to seventy
months of imprisonment and three years of supervised release for
each count, to run concurrently.
On March 24, 2004, the defendant was released from prison
and his three-year supervised release period began. Defendant
was instructed to report to the United States Probation Office
in Jackson, Mississippi within seventy-two hours of his release.
The defendant failed to report to the Probation Office as
instructed. On March 20, 2004, the defendant was arrested by the
1

20-60513.409

Case 5:98-cr

)13-DCB Document 84 Filed C

3/20 Page 2 of 15

Warren County Sheriff's Department for another bank robbery in
Vicksburg, Mississippi. The petitioner was subsequently indicted
on July 20, 2004, in the Circuit Court of Warren County,
Mississippi, for the March 2004 bank robbery. The petitioner was
convicted in a jury trial and sentenced to life imprisonment
without parole on December 15, 2004. The petitioner received
this sentence pursuant to Mississippi's habitual offender
statute, Miss. Code Ann. § 99-19-81, which requires an offender
to receive the maximum sentence without parole or probation for
the felony for which he is convicted if he has been twice
previously convicted of a state or federal felony and sentenced
to one year or more for each crime. The petitioner is currently
serving said sentence.
The petitioner now seeks relief from his 1999 guilty plea
td the two counts of bank robbery. The petitioner seeks relief
from the 1999 judgment "because the Court deprived the
petitioner of due process when it failed to conduct on its own,
a separate competency hearing when the evidence raised a
sufficient doubt as to the petitioner's mental ability to stand
trial." [ECF No. 80] at p. 2. Prior to the petitioner's entry of
a guilty plea, defense counsel and the United States made a
joint ore tenus motion for a mental health examination.

[ECF No.

9]. The petitioner has a history of suicidal ideation and
depression. On August 5, 1998, the Court granted the motion and
2

20-60513.410

Case 5:98-cr

113-DCB Document 84 Filed C

3/20 Page 3 of 15

ordered that the petitioner be provided with a mental health
examination in accordance with the provisions of Sections 4241,
4242, and 4247, Title 18, United States Code.

[ECF No. 9].

Accordingly, Wilson was transferred to the U.S. Medical
Center in Springfield, Missouri, for evaluation to determine his
competency to stand trial in the instant offense.

[ECF No.24] at

10. Wilson was evaluated between August 20 and October 2, 1998.
See id. The clinical psychologist determined that Wilson did not
meet the diagnosis criteria for any major mental illness. See
id. The psychologist noted that Wilson did not have a mental
disease or defect that would impair his ability to appreciate
the nature, quality, or wrongfulness of his actions. See id.
Wilson's disruptive and uncooperative behavior was found to be
consistent with symptoms of a personality disorder, which is not
generally construed as a major mental illness. See id. The
evaluation determined that there was no compelling reason that
Wilson's mental state should affect any sentence imposed by the
Court. See id.
Discussion
The writ of coram nobis "has been used as an avenue of
collateral attack when the petitioner has completed his sentence

3

20-60513.411

Case 5:98-cr

113-DCB Document 84 Filed C

8/20 Page 4 of 15

and is no longer 'in custody' for purposes of seeking relief
under either 28 U.S.C. § 2241 or § 2255."

Dyer, 136 F.3d 417, 422 (5th Cir. 1998).

United States v.
The writ is properly

issued "in circumstances where the petitioner can demonstrate
civil disabilities as a consequence of the criminal conviction,
and that the challenged error is of sufficient magnitude to
justify the extraordinary relief."
F.3d 767, 768 (5th Cir. 1996).

Jimenez v. Trominski, 91

The writ should only be used to

correct errors "of the most fundamental character" and when
"sound reasons exist[] for failure to seek appropriate earlier
relief."

United States v. Morgan, 346 U.S. 502, 512 (1954).

"Unlike habeas relief, coram nobis relief 'comes after the
petitioner has completed [his custodial] sentence and will not
be retried; thus, the granting of coram nobis normally results
in the expungement of the conviction, with no possibility of
further proceedings to determine whether the petitioner was
guilty of the offense charged.

r tt

Moskowitz v. United States, 64

F.Supp.3d 574, 577 (S.D. New York 2014)(citing United States v.
Mandanici, 205 F.3d 519, 532 (2nd Cir. 2000)(Kearse, J.,
concurring)). A coram nobis petitioner "bears the considerable
burden of overcoming the presumption that previous judicial
proceedings were correct."

Dyer, 136 F.3d at 422.

4

20-60513.412

Case 5:98-cr

)13-DCB Document 84 Filed C

8/20 Page 5 of 15

The failure to hold a competency hearing when
constitutionally required is a fundamental error that may
entitle a person to coram nobis relief. See Nicks v. United
States, 955 F.2d 161, 167 (2nd Cir. 1992). The Court will review
two of the requirements for a successful Writ of Coram Nobis:
(1) that sound reasons exist for failure to seek appropriate
relief earlier, and (2) that there are circumstances compelling
such action to achieve justice. See id. The petitioner has shown
the third requirement, i.e., that the petitioner continues to
suffer legal consequences from his conviction that may be
remedied by granting the writ. See id. Here, the petitioner was
sentenced under the habitual offender statute in Mississippi
State Court as a result of his guilty plea in this case.
Therefore, he continues to suffer legal consequences from his
conviction. See id.(finding legal consequences when the
conviction is used as an aggravating factor in another
sentencing).
Sound Reason for Failure to Seek Appropriate Relief Earlier
Wilson's coram nobis petition was filed in 2019,
approximately twenty years after Wilson pleaded guilty to two
counts of bank robbery in violation of 18 U.S.C. § 2113(a) and
fifteen years after his state court conviction for bank robbery.
Wilson was represented by counsel in both the federal and

5

20-60513.413

Case 5:98-cr

113-DCB Document 84 Filed (

8/20 Page 6 of 15

Mississippi proceedings - and determined to be competent by this
Court and the Mississippi court.

[ECF No. 80] at p. 4.

"Given the fact that coram nobis relief is available only
in extraordinary circumstances to correct errors of the most
fundamental character, both the interest in finality of
judgments and equitable principles require that the standards
for coram nobis relief be no less stringent than those imposed
on prisoners seeking relief under §§ 2254 and 2255." Lee v.
• United States, Civ. No. 3:08-cv-2044, 2009 WL 3762112, at *4
(N.D. Tex. Nov. 10, 2009). To allow Wilson to pursue coram nobis
relief despite the decades long delay in seeking the same would
"undermine the weighty interest in the finality of judgments."
Id.
In his Writ for Coram Nobis, Wilson asserts that he has
sound reasons for his failure to seek appropriate earlier
relief. Wilson claims that he did not seek relief sooner because
no one informed him of "his right not to be convicted while
incompetent" also, that "petitioner was not sufficiently capable
of pursuing relief while in custody due to his depression." [ECF
No. 80] at 3.
The Court is not persuaded by Petitioner's argument. He is
a consistent filer and has attempted to evade his status as a
habitual offender by attempting for over a decade to overturn
6

20-60513.414

Case 5:98-cr

)13-DCB Document 84 Filed C

8/20 Page 7 of 15

the 1999 judgment against him. The Court stated as much in its
2007 Order denying Wilson's challenge to his conviction and the
enforcement of his plea agreement. See [ECF No. 48]("The Court
surmises that the defendant is attempting to attack the 1999
felony bank robbery conviction and thereby erase one of the
bases under the Mississippi habitual offender statute (Miss.
Code Ann. § 99-19-81) for his life sentence without parole which
he received as a consequence of his state-court conviction for
the March 2004 bank robbery.")
In 2007, Wilson filed a Motion to Vacate under 28 U.S.C.
2255 [ECF No. 34]; in 2008 Wilson filed a Motion to Alter or
Amend Judgment and a Motion for Relief from Judgment or Order
[ECF Nos. 51, 52]; in 2009 Wilson filed a second Motion for
Relief from Judgment or Order [ECF No. 71]; in 2011 Wilson filed
a Motion for Records and Transcripts [ECF No. 76] so that he
could file another Motion to Vacate, Set Aside or Correct the
Conviction and Sentence under 28 U.S.C. § 2255. Petitioner's
argument that he was "not sufficiently capable of pursuing
relief while in custody due to his depression" is countered by
the clear evidence of his continued interaction with the court
system throughout his incarceration. Petitioner's argument that
he was uninformed of his "right not to be convicted while
incompetent" is equally unavailing.

7

20-60513.415

Case 5:98-cr

)13-DCB Document 84 Filed t

8/20 Page 8 of 15

The Second Circuit addressed a similar delay in a coram
nobis challenge to a district court's failure to hold a sua
sponte competency hearing. See e.g., Nicks v. United States, 955
F.2d 161 (2nd Cir. 1992). In Nicks, the petitioner filed his
writ for coram nobis fifteen years after his federal armed bank
robbery conviction and five years after his Alabama murder
conviction. See id. at 167. The Second Circuit remanded the case
to the District Court to determine whether the petitioner had a
"sound reason" for failure to seek appropriate relief earlier.
See id. at 167-68. The district court found that the petitioner
had sound reasons, explaining "[a]t no time revealed by the
post-sentencing record was Nicks in a condition to evaluate the
need for and prospects of coram nobis relief, or to instruct his
attorneys in that regard. To hold otherwise would be to condemn
an incompetent inmate for his failure to initiate litigation on
the issue of his own competence." Nicks v. United States, 835
F.Supp. 151, 155 (S.D. N.Y. 1993).
Wilson has not provided any evidence of incompetence in the
intervening years between his 1999 guilty plea and his petition
for writ of coram nobis. Wilson states that he was given a
psychiatric examination for his 2004 bank robbery conviction and
was again found to be competent.

[ECF No. 80] at 4.

Additionally, the Court has reviewed the multiple motions and
letters that Wilson has filed or sent to the Court and in each
8

20-60513.416

Case 5:98-cr

)13-DCB Document 84 Filed C

8/20 Page 9 of 15

he is articulate and able to express himself with clarity. There
is no indication that Wilson was unable to evaluate the need for
coram nobis relief or to instruct legal counsel as such.
Therefore, the Court finds that petitioner has not presented a
sound reason for his 15-year delay in filing for coram nobis
relief. Inasmuch as the petitioner fails to demonstrate a sound
reason for delay, the writ for coram nobis must be dismissed.
However, the Court shall also examine whether the petitioner has
demonstrated circumstances that would compel coram nobis relief.
Circumstances Compelling Such Action to Achieve Justice
A person must be mentally competent to plead guilty to a
crime. Mental illness does not per se render a defendant
incompetent. See"*United States v. Williams, 819 F.2d 605, 608
(5th Cir. 1987). To be deemed incompetent, the defendant must be
"unable to understand the nature and consequences of the
proceedings against him" or be unable to "assist properly in his
defense." Id. at 608. "The Fifth Circuit has held that a suicide
attempt, by itself, is not necessarily sufficient to create
'reasonable cause' for a competency hearing."^Mata v. Johnson,
210 F.3d 324, 330 (5th Cir. 2000)(citing United States v. Davis,
61 F.3d 291, 304 (5th Cir. 1995))
Section 4241(a) states:

9

20-60513.417

Case 5:98-cr-

13-DCB Document 84 Filed 0

1/20 Page 10 of 15

Motion to determine competency of defendant.— At any
time after the commencement of a prosecution for an
offense and prior to the sentencing of the defendant,
or at any time after the commencement of probation or
supervised release and prior to the completion of the
sentence, the defendant or the attorney for the
Government may file a motion for a hearing to
determine the mental competency of the defendant. The
court shall grant the motion, or shall order such a
hearing on its own motion, if there is reasonable
cause to believe that the defendant may presently be
suffering from a mental disease or defect rendering
him mentally incompetent to the extent that he is
unable to understand the nature and consequences of
the proceedings against him or to assist properly in
his defense.
"[A] hearing is required on a defendant's competency to plead
guilty whenever the trial judge entertains or should reasonably
entertain a good faith doubt as to that defendant's ability to
understand the nature and consequences of the plea or to
participate intelligently in the proceedings and to make a
reasoned choice among the alternatives presented." See Chavez v.
United States, 656 F.2d 512, 517 (9th Cir. 1981). A good faith
doubt should arise when there is "substantial evidence" of
incompetence. See id. To determine whether there is a reasonable
cause to doubt a defendant's competence, courts consider: "(1)
any history of irrational behavior,

(2) the defendant's demeanor

at trial, and (3) any prior medical opinion on competency."
♦United States v. Messervey, 317 F.3d 457, 463 (5th Cir. 2002).
The Fifth Circuit has addressed a similar set of facts to
the instant case in United States v. Arthur, No. 09-20877, 2011

10

20-60513.418

Case 5:98-cr-

13-DCB Document 84 Filed 0

1/20 Page 11 of 15

WL 2749609 (5th Cir. July 15, 2011) . In Arthur, the defendant
underwent two psychological evaluations at the request of her
counsel. See id. at *10. The psychological reports noted that
the defendant had been diagnosed with bipolar disorder and
chronic, severe post-traumatic stress disorder. See id. However,
the report stated that the defendant was competent to stand
trial and was sane at the time of the offense. See id. Based on
the two psychological reports, the Fifth Circuit found that the
district court did not receive information which, objectively
considered, should have raised a doubt about the defendant's
competency. See id.
Additionally, in a well reasoned opinion out of the United
States Court of Appeals, Second Circuit, the Court found that it
was not an abuse of discretion for a district court to rely on a
court ordered competency evaluation in its determination that
there was no reasonable cause for a competency hearing. See
United States v. Simmons, No. 97-1291, 1998 WL 538120, at *1
(2nd Cir. Aug. 17, 1998)(finding that a district court may "rely
on this evidence to determine that there is no reasonable cause
for a competency hearing."); see also, United States v.
Premachandra, 32 F.3d 346, 347 (11th Cir. 1994)(finding that a
district court did not err in accepting a guilty plea without
conducting a competency hearing when the court ordered mental

11
20-60513.419

Case 5:98-cr-'

13-DCB Document 84 Filed 0

720 Page 12 of 15

evaluation showed that the defendant was suffering from a mental
illness but that the defendant was competent to stand trial).
Included in the materials submitted to the Court for review
upon sentencing, was the competency evaluation of Wilson
conducted at the U.S. Medical Center in Springfield, Missouri.
Defense counsel had the opportunity to provide objections
regarding the presentence report. In his objections, counsel
discusses the Springfield evaluation.1 The evaluation contained
the following opinion, in relevant part, of Doctor Richart L.
DeMier, clinical psychologist:
"Mr. Wilson had an adequate understanding of the
possible pleas that can be entered by a defendant. He
realized that a guilty plea is tantamount to an
admission of the allegations. He recognized that a not
guilty plea could be appropriate even when the
defendant committed the act with which he is charged,
and that a person may plead not guilty until he is
able to determine the strength of the evidence. He
recognized the term of no contest, but he was unable
to identify the meaning of that plea. However, he
readily understood a brief explanation. He displayed a
basic understanding of the plea of not guilty by
reason of insanity, and he recognized that the
disposition of a person adjudicated not guilty by
reason of insanity generally involves treatment in an
inpatient setting, such as a prison or hospital. He
displayed a thorough understanding of the concept of a
plea agreement, and stated he has been involved in a
plea agreement in the past. He explained that the most
common plea agreement involves a reduced penalty in
exchange for a guilty plea. He discussed potential
advantages and disadvantages of plea agreements, and
1 Counsel for Wilson noted that Dr. Richart DeMier did not have any additional
medical records sought from Charter Hospital when the report was prepared and
that Dr. DeMier did not reference the fact that Wilson suffers from
Eosinophilia, of which a primary symptom is depression.

12
20-60513.420

Case 5:98-cr-

13-DCB Document 84 Filed 0

1/20 Page 13 of 15

he explained the issues he would consider if a plea
agreement were offered, such as the strength of the
evidence against him and the proposed penalty.

It is my opinion that Mr. Wilson has an adequate
understanding of the nature and potential consequences
of the proceedings against him. It is also my opinion
that he is currently competent to assist properly in
his defense. During the evaluation, he was able to
discuss his version of the facts of his case in a
clear and coherent manner. He appeared capable of
disclosing appropriate information to his attorney,
considering various courses of action, providing
relevant testimony if necessary, and making decisions
following consultations with his attorney.

Based on this information, it is my opinion that Mr.
Wilson is currently competent to proceed to trial or
make other decisions about his legal case. He does not
suffer from any mental disease or defect which would
preclude his ability to understand the nature and
consequences of the proceedings against him or to
assist properly in his defense."
See (Def.'s Obj. to Pre-Sentence Report Exh. E, at 9). Upon
review of the competency evaluation and interactions with the
Defendant during sentencing, the Court had no reasonable cause
to doubt the defendant's ability to understand the nature and
consequences of the plea or to participate intelligently in the
proceedings and to make a reasoned choice among the alternatives
presented.
It should be noted that due to the age of this case, the
court reporter did not file a transcript of the courtroom
proceedings. Additionally, on the date this Writ for Coram Nobis
was filed, the transcript had been destroyed because the case is
13

20-60513.421

Case 5:98-cr-

13-DCB Document 84 Filed 0

i/20 Page 14 of 15

over twenty years old. However, the petitioner described his
decision to accept a plea deal in post-judgment proceedings,
stating the following:
"The petitioner ['s] decision to admit guilt was based
on receiving a lesser sentence ranging from 70-87
months along with 3-years supervised release.
Petitioner was told this fact from [his] court
appoint[ed] attorney, the prosecutor stating this fact
in open court and the Court when imposing sentencing.
This effect caused petitioner not to do any appeal
timely."
[ECF No. 73].
Conclusion
The Petitioner has failed to show a sound reason for not
seeking earlier relief or circumstances compelling the Court to
grant his Writ of Coram Nobis. At the time of his guilty plea,
the petitioner underwent a psychiatric evaluation and was found
to be competent. There was no reason for the Court to doubt
Wilson's ability to understand the nature and consequences of
the plea or to participate intelligently in the proceedings and
to make a reasoned choice among the alternatives presented.
Therefore, the Court did not conduct a sua sponte competency
hearing. In the years following the guilty plea, there is no
evidence that the petitioner was incompetent or unable to pursue
the appropriate relief. For these reasons the Writ for Coram
Nobis must be DENIED.
Accordingly,

14

20-60513.422

Case 5:98-cr-

13-DCB Document 84 Filed 0

3/20 Page 15 of 15

It is HEREBY ORDERED that the Writ of Coram Nobis is
DENIED.

SO ORDERED this the 8th day of June, 2020.
/s/ David Bramlette
UNITED STATES DISTRICT JUDGE

15

20-60513.423

Case: 20-60513

Document: 00515810684

Page: 1

Date Filed: 04/06/2021

Urnteti States Court of Appeals
for tfje Jftftf) Ctrtutf
No. 20-60513

United States of America
Plaintiff—Appellee,
versus
Bobby Wilson, Jr.,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 5:98-CR-13-l

Before Jones, Costa, and Wilson, Circuit Judges.
Per Curiam:
This panel previously GRANTED Appellee’s motion to dismiss the
appeal. The panel has considered Appellant’s motion for reconsideration.
IT IS ORDERED that the motion is DENIED.

APPENDIX;

c

Additional material
from this filing is
available in the
Clerk's Office.

